CERTIFICATE OF COMPLIANCE
No,
HORACIO SEQUEIRA,
Petitioner,
v.
The Republic of Nicaragua, a Foreign State, The City
of Chinandega, a political subdivision of the Republic of
Nicaragua, Eduardo Jose Callejas Callejas, an individual
citizen of the United States of America, Estrellita Del
Carmen Troz Martinez, an individual, Chief of Public
Records of the city of Chinandega, political subdivision of
the Republic of Nicaragua,
Respondents.
As required by. Supreme Court Rule 33.1(h), I certify that
the attached Petition for Writ of Certiorari is
proportionately spaced, has a typeface of 12 points,
Century Schoolbook font, and it contains 7,505 words
excluding the parts of the Statement that are exempted
by Supreme Court Rule 33.1(d). The limit excludes the
appendices, statutory material, covers, tables of contents
and/or authorities, and the certificate of service. As
required by Supreme Court Rule 33.1(h).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on^September 2

Horaeio Sequeira, Pro Se
13280 Port Said Road C301
Opa*Locka, FL 33054
Phone: 786-468-1792
centrolatinos@gmail.com

0.

